                      STATE OF NEW JERSEY
                     DEPARTMENT OF LABOR
                          P. O. BOX 110
                   TRENTON, NEW JERSEY 08625




            AUDIT OF INDIRECT COSTS CHARGED TO

         U.S. DEPARTMENT OF LABOR GRANT AWARDS

                        DURING THE PERIOD

        OCTOBER 1, 1997 THROUGH SEPTEMBER 30, 2001




This audit report was prepared by Tichenor & Associates, LLP, under
contract to the U.S. Department of Labor, Office of Inspector General, and,
by acceptance, it becomes a report of the Office of Inspector General.

                              _____________________________________
                              Acting Deputy Inspector General for Audit
                              U.S. Department of Labor




                                        Report No:    03-02-002-03-315

                                        Date Issued: March 29, 2002




                 TICHENOR & ASSOCIATES, LLP
 CERTIFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS
                                                TABLE OF CONTENTS



ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

      Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
      Objectives and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
      Federal Cost Reimbursement Principles . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

      1.    NJDOL Failed to Reimburse UI Grants for AS&T Costs
            When It Reimbursed Other Costs for the Collection of State Taxes . . . . . . . . . . . . . . 12

      2.    Allocation Base Used by NJDOL to Distribute its AS&T Costs
            was Flawed Because Certain State-Funded Projects were Excluded . . . . . . . . . . . . . . 16

CONCLUSIONS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

INDEPENDENT ACCOUNTANT'S REPORT ON AUDIT . . . . . . . . . . . . . . . . . . . . . . . . 21

EXHIBITS

Exhibit A.         Departmental AS&T Costs Applicable to UI Tax Function
                   that Should Have Been Reimbursed by NJDOL to UI Grants . . . . . . . . . . . . . . . 24

Exhibit B.         Comparison of NJDOL and Auditor Allocation
                   of AS&T Costs to DOL Grants for FFY 1998 . . . . . . . . . . . . . . . . . . . . . . . . . . 25

Exhibit C.         Comparison of NJDOL and Auditor Allocation
                   of AS&T Costs to DOL Grants for FFY 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . 26

Exhibit D.         Comparison of NJDOL and Auditor Allocation
                   of AS&T Costs to DOL Grants for FFY 2000 . . . . . . . . . . . . . . . . . . . . . . . . . . 27

Exhibit E.         Comparison of NJDOL and Auditor Allocation
                   of AS&T Costs to DOL Grants for FFY 2001 . . . . . . . . . . . . . . . . . . . . . . . . . . 28

AUDITEE’S RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
                        ACRONYMS AND GLOSSARY




AS&T        Administrative Staff and Technical (indirect costs)

CFR     Code of Federal Regulations

CPA         Certified Public Accountant

DOL         U.S. Department of Labor

ETA         U.S. Department of Labor, Employment and Training Administration

FFY         Federal Fiscal Year - October 1 to September 30

HHS         U.S. Department of Health and Human Services

NJDOL       New Jersey Department of Labor

OCD         U.S. Department of Labor, Office of Cost Determination

OIG         U.S. Department of Labor, Office of Inspector General

OMB         U.S. Office of Management and Budget

OSHA        Occupational Safety and Health Administration

SWCAP       Statewide Cost Allocation Plan

UI          Unemployment Insurance




                                          ii
GLOSSARY


Direct Cost:       A cost that can be identified specifically with a particular cost objective,
                   e.g., the DOL Unemployment Insurance Program.

Indirect Cost:     A cost which cannot be identified with a single, final cost objective, but is
                   identified with two or more final cost objectives, one or more of which
                   benefits Federal programs. Such costs are combined into groupings or
                   pools for distribution to benefitting final cost objectives. Indirect cost
                   pools should be distributed to benefited cost objectives on bases that will
                   produce an equitable result in consideration of relative benefits derived.

Questioned Cost:   A cost that is questioned because of:

                   (a) an alleged violation of a provision of a law, regulation, contract, grant,
                   cooperative agreement, or other agreement or document governing the
                   expenditure of funds; or

                   (b) at the time of the audit, such cost is not supported by adequate
                   documentation; or

                   (c) the expenditure of funds for the intended purpose is unnecessary or
                   unreasonable.




                                             iii
                                  EXECUTIVE SUMMARY



Tichenor & Associates, LLP, Certified Public Accountants and Management Consultants, under
contract to the U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted
an audit of the Administrative Staff and Technical (AS&T) costs claimed by the New Jersey
Department of Labor (NJDOL) as being applicable to grant awards from the DOL. Our audit
covered Federal fiscal years (FFYs) ended September 30, 1998, 1999, 2000, and 2001. NJDOL
records show that it claimed and was reimbursed by DOL for over $54.2 million of indirect costs
for the 4-year period covered by our audit.

Our audit found that the NJDOL did not comply with OMB Circular A-87 requirements that
indirect costs, such as AS&T costs, be allocated to all projects/programs on the basis of “relative
benefits received.” Our audit disclosed that for the 4-year period ended September 30, 2001,
NJDOL had billed and received a total of over $54.2 million in AS&T costs from DOL.
However, NJDOL’s actual allowable AS&T costs properly allocable to DOL grant awards, on the
basis of “relative benefits received,” totaled only $48.0 million during this period. As a result,
NJDOL overcharged DOL grant awards by about $6.2 million for AS&T costs during this 4-year
period.

Based on our audit, we question $6,166,318 in AS&T costs claimed and recovered by NJDOL on
DOL grant awards during the 4-year period ended September 30, 2001, primarily because:

•   Although NJDOL reimbursed the Unemployment Insurance (UI) grant account for certain UI
    tax collection costs allocable to State tax programs which “piggy-back” on the UI tax
    collection system, it failed to include departmental AS&T costs in the amounts reimbursed.
    Consequently, the total costs charged to DOL for the UI program included AS&T costs that
    should have been reimbursed by State-funded programs.

•   The allocation base used by NJDOL to distribute its AS&T costs to final cost objectives was
    flawed because it did not include all projects.

The net effect of the matters summarized above was a substantial shifting of costs from NJDOL’s
State programs (to which such costs were properly allocable) to DOL grant awards, resulting in a
significant overrecovery of indirect costs on the DOL grant awards. We expect that a similar
overrecovery of indirect costs on DOL grant awards will also occur in FFY 2002 because the
conditions discussed above had not changed as of the completion of our fieldwork in December
2001.




                                                2
Recommendations

We recommend that the cognizant DOL grant officer(s) to: (1) direct NJDOL to refund the
$6,166,318 in AS&T costs which it over-recovered for FYs 1998, 1999, 2000, and 2001; and (2)
to adjust its billings to DOL for FY 2002 for AS&T costs to preclude further overrecoveries of
AS&T costs.

Further, we are recommending that the Assistant Secretary for Employment and Training direct
NJDOL ensure that its proposals on AS&T cost allocation methodology rate proposals fully
comply with the reasonableness, allocability, and allowability criteria mandated by OMB Circular
A-87; and that the Assistant Secretary for Employment and Training direct NJDOL to include a
provision in its annual audit plans for periodic audit of the implementation of negotiated
agreements applicable to the sharing of UI tax collection costs and the allocation of AS&T costs
directly to projects.

                                            *****

We held an exit conference with NJDOL officials on December 13, 2001, in which we presented a
summary of our findings. Generally, they reserved comment on the findings pending receipt of
our draft audit report. However, we discussed in some detail the methodology we used for both
findings included in this report, and, based on additional information provided by them shortly
after the meeting, we made a minor adjustment to the data used in reallocating their AS&T costs
to all projects.

Auditee’s Response

In their response to our draft report, NJDOL officials disagreed with the report’s findings and
recommendations, concluding that NJDOL had not overrecovered its indirect costs and,
therefore, did not owe a refund to DOL. NJDOL stated that while it did not reimburse UI for
AS&T costs applicable to NJDOL shared UI tax collection costs, an audit of the entire process
for sharing such costs would have revealed that NJDOL overreimbursed the UI program by about
$6.1 million as opposed to the underreimbursement of AS&T costs of $4.8 million. Regarding
the exclusion of several State programs from the base for allocating AS&T costs, NJDOL stated
that it direct charged AS&T costs to State programs, and such direct charging does not violate
Federal requirements.

We have incorporated NJDOL’s detailed comments at the end of each finding, as appropriate. In
addition, a copy of NJDOL’s written response is included, in its entirety, as an appendix to this
report.




                                                3
Auditors’s Conclusion

NJDOL’s written response admits that it improperly excluded AS&T costs from its
reimbursement of UI tax collection costs. At the same time, NJDOL contends it overreimbursed
UI because its reimbursement methodology was flawed. However, our audit showed that the
methodology was consistent with its negotiated, written agreement with DOL. In addition,
NJDOL’s contention that it direct charged AS&T costs to State programs is misleading because
the amounts so charged were arbitrarily determined so that they would equal the AS&T amount
appropriated by the State for these programs — they were not determined on the basis of relative
benefits received as required by Federal cost principles.

NJDOL’s comments do not warrant any changes to the report findings. All the recommendations
are considered unresolved and will be addressed in ETA’s formal audit resolution process.




                                               4
                                      INTRODUCTION



BACKGROUND

The New Jersey Department of Labor (NJDOL) is responsible for providing income maintenance
to the disabled and the unemployed; training and retraining the State’s workforce; and ensuring
safety in the workplace. Most of the Department’s programs are fully funded with Federal or
dedicated (State trusts) funds. At the time of our audit, NJDOL consisted of four operating units
— Labor and Planning Analysis, Workforce New Jersey, Labor Standards and Safety
Enforcement, and Disability Services — each under the overall supervision of an assistant
commissioner. Each assistant commissioner is responsible for the operation of several programs,
and reports directly to the Deputy Commissioner.

For the State fiscal year ended June 30, 2000, NJDOL reported expenditures of over $429.4
million, and employed more than 3,800 people. The operating unit, Workforce New Jersey,
administers the U.S. Department of Labor (DOL) grants and was the largest unit within NJDOL.
Other Federal agencies that fund programs through NJDOL include the Social Security
Administration and the U.S. Departments of Education and Health and Human Services (HHS).
A brief discussion of the major divisions within the various NJDOL operating units follows.

Division of Unemployment Insurance. This division administers New Jersey’s unemployment
insurance (UI) program, providing temporary economic security for workers separated from their
jobs through no fault of their own. This program is State-administered and federally funded,
except for the UI benefits which are provided and collected through unemployment taxes on
employers by the State.

Division of Employment and Training. This division provides employment and training
services to job seekers and employers through the One-Stop Career System. In addition, this
division provides the employment and training component for the Welfare-to-Work and Work
First New Jersey programs.

Division of Public Safety and Occupational Safety and Health. This division protects the
public through inspection and enforcement under the Mine Safety, Explosives, Safe Dispensing of
Retail Gasoline and High Voltage Proximity Acts. The division also provides free consultation
services to private sector employers. The consultations cover Federal Occupational Safety and
Health Administration (OSHA) standards and are designed to make work sites safer.




                                                5
Division of Disability Determination Services. This division documents, evaluates, and
adjudicates disability claims filed by New Jersey residents under the Social Security disability
programs of the Social Security Administration.

Division of Vocational Rehabilitation Services. This division enables individuals with
disabilities to obtain jobs consistent with their strengths, priorities, needs, and capabilities. The
division also assists businesses that employ persons with disabilities through free consultation
services which include providing pre-screened, qualified workers for job openings.

Division of Wage and Hour Compliance. This division enforces laws and regulations that
protect workers from exploitation and employers from unfair competition, including minimum
wage levels, overtime, child labor, and other workplace standards, as well as the payment of
prevailing wage rates on public works projects.

Division of Workers’ Compensation. This division provides benefits to workers or their
beneficiaries who are injured or who contract an occupational disease on the job. The benefits
include medical care, temporary disability payments, and compensation for a resulting permanent
disability. The division maintains an administrative adjudication system to resolve disputes
between employers and employees regarding benefits.


                                             *******


NJDOL annually prepares and submits to DOL’s Office of Cost Determination (OCD) an indirect
cost rate proposal for the various projects/programs operated by NJDOL, including many DOL
programs. NJDOL’s indirect cost rate proposal contains the NJDOL portion of the New Jersey
Statewide Cost Allocation Plan (SWCAP) as the total NJDOL indirect costs. The SWCAP is
used to allocate the costs of various State central services to all departments and agencies within
the State. The indirect costs are then allocated to the NJDOL projects/programs based on direct
personal services costs (salaries and wages) for each project in relation to the total direct personal
services costs for all NJDOL projects to arrive at the indirect cost rate. The negotiated/approved
indirect cost rate agreements are based on actual costs incurred, and the agreements are subject to
audit.

The administrative costs for operating NJDOL (department-level services including accounting,
budgeting, internal auditing, planning and research, office services, procurement, and property and
equipment management) are distributed through direct charges to projects/programs. These costs
are accumulated in an account entitled Administrative Staff and Technical (AS&T) costs, and are
periodically billed directly to projects/programs on the basis of each project’s direct labor hours
(regular, overtime, and leave) in relation to the total departmental direct labor hours for regular,
overtime, and leave. Personal benefits costs (fringe benefits) include costs such as pension, health
benefits, temporary disability, and unemployment insurance, and are charged to projects on the


                                                   6
basis of the rate(s) negotiated with the HHS. The negotiated rates are applied to the total
personal services costs. AS&T non-personal services include costs such as rent, insurance,
telephone and other communications, postage, and supplies, and, generally, are allocated similar
to personal services costs. While AS&T rates are not established in the negotiated indirect cost
rate agreements, the methodology for direct billing of AS&T costs to projects is included in these
agreements.




                                                7
OBJECTIVES AND SCOPE

Our objective was to conduct an audit of direct and indirect costs charged to the Unemployment
Insurance (UI) program for Federal fiscal year (FFY) ended September 30, 2000, to determine
whether such costs were reasonable, allocable, and otherwise allowable under the Federal cost
principles set forth in OMB Circular A-87 — Cost Principles for State, Local and Indian Tribal
Governments, and the implementing guidelines set forth in ASMB C-10 — Cost Principles and
Procedures for Establishing Cost Allocation Plans and Indirect Cost Rates for Agreements with
the Federal Government. Further, the audit objective provided that, depending on the results of
our audit of direct and indirect costs charged to the UI program in FFY 2000, the scope of the
audit could be expanded to include additional years and other DOL grant programs.

Our preliminary audit of costs charged to the UI grant program indicated potential significant
problems with the allocability of AS&T costs beginning as early as October 1, 1997, and
continuing to the end of our fieldwork. Accordingly, the primary focus of our audit was on the
allocation of AS&T costs to DOL grants administered by NJDOL for FFYs ended September 30,
1998, 1999, 2000, and 2001.

The objective of our audit was to examine the NJDOL methodology for allocating AS&T costs to
projects/programs and recovering such costs. We were not engaged to, and did not, perform an
audit of NJDOL’s total costs, the objective of which would have been the expression of an
opinion on the total costs claimed by NJDOL, and, accordingly, we do not express such an
opinion.

This engagement was performed in accordance with auditing standards established by the
American Institute of Certified Public Accountants, and with the Government Auditing Standards
issued by the Comptroller General of the United States, except that the scope of our engagement
did not include expressing a formal written opinion on the reasonableness and allowability of the
total costs claimed by NJDOL, its system of internal controls, or its compliance with laws and
regulations applicable to all Federal grants/contracts.

Our audit fieldwork was performed at NJDOL offices in Trenton, New Jersey, primarily during
the period October 9, 2001, through December 14, 2001. An exit conference was held on
December 13, 2001, with the NJDOL Director, Division of Accounting, and various other
Division of Accounting officials.

FEDERAL COST REIMBURSEMENT PRINCIPLES

DOL grants provide for payment of allowable, reasonable, and allocable incurred costs as
determined by OMB Circular A-87. In addition to Circular A-87, the grant award and the
"Common Rule" (as implemented by DOL at 29 CFR § 97) governing grants to State and local
governments, contain a number of compliance requirements which must be met for costs to be
allowable. Among other things, the costs must be in accordance with generally accepted


                                                8
accounting principles, and the grant accounting records must be supported by adequate source
documentation such as canceled checks, paid bills, payroll records, time and attendance records,
contract and subcontract award documents, etc.

General Principles for Determining Allowable Costs

Attachment A to OMB Circular A-87 establishes general principles for determining allowable
costs, both direct and indirect, incurred by state, local, and Indian tribal governments under
grants, cost-reimbursement contracts, and other agreements with Federal agencies. The principles
are established for the purpose of determining the reasonableness, allowability, and allocability of
costs claimed and are not intended to dictate the extent of Federal or contractor/grantee
participation in the financing of a particular program or project. Accordingly, they describe what
may be reimbursed or recovered under a Federal award. The principles are designed to ensure
that the Federal Government bears its fair share of costs incurred, except where specifically
restricted or prohibited by law.

Under OMB Circular A-87, Attachment A, paragraph C, costs charged to Federal programs must
meet the tests of allowability, reasonableness, and allocability. To be allowable, costs must meet
the following general criteria:

    a.   Be necessary and reasonable for proper and efficient performance and
         administration of Federal awards.
    b.   Be allocable to Federal awards under the Circular (e.g., on the basis of relative
         benefits received).
    c.   Be authorized (or not prohibited) under state or local laws and regulations.
    d.   Conform to any limitations or exclusions set forth in these principles, Federal laws,
         the terms and conditions of the Federal award, or any other governing regulations
         as to types and/or amounts of cost items.
    e.   Be consistent with policies, regulations, and procedures that apply uniformly to
         both Federal awards and other activities/programs of the governmental unit.
    f.   Be accorded consistent treatment. A cost may not be assigned to a Federal award
         as a direct cost if any other cost incurred for the same purpose in like circumstances
         has been allocated to the Federal award as an indirect cost.
         [Note: Similarly, a cost may not be allocated to a Federal award as an indirect cost
         if any other cost incurred for the same purpose in like circumstances has been
         charged to the award as a direct cost.]
    g.   Except as otherwise provided for in the Circular, costs must be determined in
         accordance with generally accepted accounting principles.
    h.   Not be included as a cost or used to meet cost-sharing or matching requirements of
         any other Federal award in either the current or a prior period, except as specifically
         provided by Federal law or regulation.
    i.   Be the net of all applicable credits.
    j.   Be adequately documented.


                                                 9
A cost may be considered reasonable if, in its nature and amount, it does not exceed that which
would be incurred by a prudent person under the circumstances prevailing at the time the decision
was made to incur the costs. The question of reasonableness is particularly important when
governmental units or components are predominantly federally funded. In determining
reasonableness of a given cost, consideration will be given to:

    a.   Whether the cost is of a type generally recognized as ordinary and necessary for the
         operation of the governmental unit or the performance of the Federal award.
    b.   The restraints or requirements imposed by such factors as sound business practices;
         arms-length bargaining; Federal, state, and other laws and regulations; and terms
         and conditions of the Federal award.
    c.   Market prices for comparable goods or services.
    d.   Whether the individuals concerned acted with prudence in the circumstances
         considering their responsibilities to the governmental unit, its employees, the public
         at large, and the Federal Government.
    e.   Significant deviations from the established practices of the governmental unit which
         may unjustifiably increase the Federal award’s cost.

The basic guidelines for costs to be allocable are briefly summarized, as follows:

    a.   A cost is allocable to a particular cost objective if the goods or services involved
         are chargeable or assignable to such cost objective in accordance with the “relative
         benefits received.”
    b.   All activities which benefit from the governmental unit’s indirect costs, including
         unallowable activities and services donated to the governmental unit by third
         parties, will receive an appropriate allocation of the indirect costs.
    c.   Any cost allocable to a particular Federal award or cost objective under the
         principles provided for in this Circular may not be charged to other Federal awards
         to overcome fund deficiencies, to avoid restrictions imposed by law or terms of the
         Federal awards, or for other reasons. However, this prohibition would not preclude
         governmental units from shifting costs that are allowable under two or more awards
         in accordance with existing program agreements.
    d.   Where an accumulation of indirect costs will ultimately result in charges to a
         Federal award, a [approved] cost allocation plan [and/or an approved indirect cost
         rate agreement] will be required as described in Attachments C, D, and E.

OMB Circular A-87 mandates that the HHS issue implementing guidelines for A-87 on behalf of
the entire Federal Government. HHS has developed and issued these guidelines in ASMB C10 —
Cost Principles and Procedures for Establishing Cost Allocation Plans and Indirect Cost Rates
for Agreements with the Federal Government. These additional guidelines include discussions of
the requirements for preparing and submitting cost allocation plans, public assistance cost
allocation plans, and state and local indirect cost rate proposals. In addition, these guidelines
address types of indirect cost rates, acceptable methodologies for indirect cost rate


                                                10
determinations, allocation bases, special rates, the submission and documentation of indirect cost
rate proposals, the review, negotiation, and approval of indirect cost rates, etc.




                                                11
                                                FINDINGS



The NJDOL did not comply with OMB Circular A-87 requirements that indirect costs such as
AS&T be allocated to cost objectives on the basis of “relative benefits received.” Our audit
disclosed that for the 4-year period ended September 30, 2001, NJDOL had billed and received a
total of $54,214,688 in AS&T costs from DOL. However, NJDOL’s actual allowable AS&T
costs properly allocable to DOL grant awards, on the basis of “relative benefits received,” totaled
only $48,048,370 during this period. As a result, NJDOL overcharged DOL grant awards a total
of $6,166,318 in AS&T costs during this 4-year period. The following schedule summarizes the
NJDOL’s AS&T costs charged to DOL grants, the allowable AS&T costs based on audit results,
and any over/under-recovery of AS&T costs from DOL for the 4-year period covered by our
audit.

                                                                     (Thousands of dollars)
             Description                   1998          1999         2000             2001     Total
      AS&T Costs Charged
                                          $11,730      $13,881       $14,353      $14,251       $54,215
      to DOL Grants
      Allowable AS&T Costs
                                          $10,319      $12,326       $12,747      $12,657       $48,049
      on DOL Grants
      AS&T Over Charges
                                           $1,411        $1,555       $1,606           $1,594    $6,166
      on DOL Grants
         Note: Differences in totals due to rounding of figures to nearest thousand.

Based on our audit, we questioned a total of $6,166,318 in AS&T costs which were improperly
claimed and recovered by NJDOL on DOL/ETA grant awards during FFYs 1998,1999, 2000, and
2001, for the following reasons:

1.   Although NJDOL reimbursed the UI account for certain UI tax collection costs properly
     allocable to State-funded programs, it failed to reimburse the UI account for about $4.8
     million in departmental AS&T costs also allocable to these State-funded programs. Instead,
     the $4.8 million in AS&T costs were charged to and recovered on the DOL UI grants. These
     AS&T costs should have been charged to State-funded programs in accordance with Federal
     cost principles, and as provided in a written agreement between DOL and NJDOL for sharing
     of tax collection costs, because the UI tax function also collects three state taxes. The
     agreement states that the shared costs include departmental administrative costs (i.e., AS&T
     costs).




                                                      12
2.   The allocation base used by NJDOL to distribute its AS&T costs to its final cost objectives
     was flawed because its excluded several State projects funded by State general fund revenue.
     This resulted in DOL grant awards being allocated about $1.4 million more than their fair
     share of the AS&T costs.

The net effect of the matters summarized above was a substantial shifting of costs from NJDOL’s
State programs (to which such costs were properly allocable) to DOL grant awards which
resulted in a significant over-recovery of AS&T costs on the DOL/ETA grant awards.

Further, we expect that a similar overrecovery of AS&T costs on DOL/ETA grant awards will
also occur in FY 2002 because the conditions discussed above had not changed as of the
completion of our fieldwork in December 2001.

The detailed results of our audit are presented in the individual findings on the following pages of
this report.


 FINDING 1. NJDOL Failed to Reimburse UI Grants for AS&T Costs
            When It Reimbursed Other Costs for the Collection of State Taxes

Our audit disclosed that NJDOL annually reimburses to the UI program millions of dollars of
costs for the UI tax collection function because this function also collects three State taxes as well
as the UI tax. NJDOL reimbursed the UI program for its share of the UI tax collection function
costs including direct personal services, personal benefits, non-personal services, and associated
division-level AS&T costs. However, it did not reimburse the UI program for almost $4.8 million
in departmental AS&T costs also allocable to the UI tax collection function for FFYs 1998, 1999,
2000, and 2001.

As required by OMB Circular A-87, DOL and NJDOL had entered into a cost-sharing agreement
in which NJDOL would reimburse the UI account for its share of the costs of the UI tax
collection function since the UI tax collection function significantly benefits State programs as
well as the UI program. The cost-sharing agreement states that departmental administrative staff
costs will be included with the UI tax collection function’s direct costs for personal services,
personal benefits, and non-personal services. Indirect costs, such as departmental AS&T, must be
included in cost-sharing agreements to comply with the OMB Circular A-87 requirement that all
activities which benefit from the indirect costs will receive an appropriate allocation of the indirect
costs. Because NJDOL did not reimburse the UI program for departmental AS&T costs properly
allocable to the three State tax programs, NJDOL over-recovered almost $4.8 million of AS&T
costs from the DOL UI program. The amount of departmental AS&T costs not reimbursed are
summarized in the following table.




                                                  13
      Description          FFY 1998      FFY 1999       FFY 2000       FFY 2001         Total
 Personal Services           $792,807      $777,788        $868,873      $851,524     $3,290,992
 Personal Benefits           $169,661      $184,569        $228,514      $216,287       $799,031
 Non-Personal Services       $144,473      $231,122        $161,250      $148,472       $685,317
 Totals                    $1,106,941    $1,193,479      $1,258,637    $1,216,283     $4,775,340

As required by OMB Circular A-87 and DOL General Administrative Letter 4-91 “Allocation of
Costs of Assessing and Collecting State Taxes,” the DOL/OCD has had negotiated agreements
with NJDOL for many years regarding the sharing of UI tax collection costs. The last agreement,
dated March 17, 1992, stated that NJDOL would reimburse the UI program for 44.42 percent of
the cost of the UI tax collection function because it was also being used to collect a State
disability tax. Subsequently, NJDOL unilaterally increased its share to 55.15 percent because it
had added two more State taxes to be collected by the UI tax collection function beginning in FY
1997.

DOL/OCD is currently awaiting statistical data from NJDOL to negotiate a new agreement for
the three taxes. The current agreement states that

          The actual amount of the State reimbursement will be calculated from the
          costs reported on the Department of Labor’s cost accounting system.
          These costs will include:

                       Personal Services
                       Personal Benefits
                       Non-Personal Services
                       Departmental Administrative Staff Costs

Our audit of the costs reimbursed by NJDOL to the UI program, in accordance with the
agreement, showed that the reimbursements occurred monthly and included the costs for personal
services, personal benefits, non-personal services, and an equitable share of the AS&T costs of the
UI unit. For example, for the month of September 2000, NJDOL reimbursed the UI program
$966,632. This amount included $598,697 (or 55.15 percent) of the $1,085,579 direct personal
services costs and an equitable portion of the UI unit’s AS&T costs. Personal benefits costs
(based on a HHS-approved percentage of personal services costs) totaled $151,171, and non-
personal services costs were $216,764.

However, the September reimbursement did not include any departmental AS&T costs.
We found the same to be true for all of the other months during the 4-year period ended
September 30, 2001. NJDOL’s failure to include departmental AS&T costs as part of its
reimbursement violated the Federal cost principles set forth in OMB Circular A-87 and the
negotiated agreement on cost-sharing.


                                                14
Accordingly, we determined the amount of departmental AS&T which should have been
reimbursed to the UI program for the 4-year period. As opposed to NJDOL’s monthly
calculations to determine the monthly reimbursements, we formulated yearly averages for various
parts of NJDOL’s monthly calculations. Using these yearly averages, we found that departmental
AS&T costs totaling $4,775,340 should have been reimbursed by NJDOL to the UI program.
Because this was not done, the DOL UI grants were over-charged by that amount, and NJDOL
over-recovered $4,775,340 in AS&T costs from the UI grants. Data used in our calculations are
listed below. Exhibit A contains all the factors used in our calculations for the four FFYs.

                        Departmental AS&T Costs Not Reimbursed

           Description               FFY 1998      FFY 1999       FFY 2000       FFY 2001
 UI positions related to Tax
                                             351           308            296            274
 Function - Direct plus UI AS&T
 Total UI positions                        1,424         1,335          1,232          1,176
 Department AS&T PS Costs
                                     $5,830,411     $6,117,395     $6,559,532     $6,633,006
 Applicable to UI
 Department AS&T PS
                                     $1,437,546     $1,410,314     $1,575,472     $1,544,014
 Applicable to Tax Function
 AS&T PS Reimbursable
                                       $792,807       $777,788      $868,873        $851,524
 By NJDOL (55.15%)
 Personal Benefits Rate                  21.40%        23.73%         26.30%         25.40%
 Personal Benefits = % of PS
                                       $169,661       $184,569      $228,514        $216,287
 Reimbursable by NJDOL
 AS&T Non-Personal Costs
                                     $1,062,474     $1,817,801     $1,217,354     $1,156,536
 Applicable to UI Unit
 AS&T Non-Personal Costs
                                       $261,963       $419,078      $292,384        $269,215
 Applicable to Tax Function
 AS&T Non-Personal Costs
                                       $144,473       $231,122      $161,250        $148,472
 Reimbursable by NJDOL
 Total Reimbursable and Over
                                     $1,106,941     $1,193,479     $1,258,637     $1,216,283
 Recovery
 Grand Total of Over Recovery                                                     $4,775,340

We discussed NJDOL’s failure to include departmental AS&T costs in the amounts reimbursed to
the UI program with the NJDOL Director of Internal Audit. He stated that his office has
reviewed the amounts being reimbursed by State programs to assure that the monthly charges are
supportable. However, he stated that his office had not reviewed the reimbursement calculations
to determine whether NJDOL was complying with the negotiated agreement and the provisions of
OMB Circular A-87.




                                              15
We also asked the NJDOL Director of Accounting why the departmental AS&T costs were not
included in the amounts reimbursed to the UI program by State-funded programs. Initially, he
stated the reimbursements were calculated in accordance with the terms of the agreement.
Subsequently, an assistant director of accounting stated that it was believed that the inclusion of
the UI unit’s AS&T was adequate to meet the terms of the agreement. In our opinion, neither
answer given was responsive to our question, nor directly addressed the issue.

The failure by NJDOL to comply with the agreement, and the corresponding monthly over-
recoveries of departmental AS&T costs from UI grants, continue.


Auditee’s Response

In their response to our draft report, NJDOL officials stated, in part, that:

    We agree with the finding that certain AS&T costs were not allocated to State funded
    programs which operate joint tax activities with the Unemployment Insurance
    Program. . . . Our review of the allocations made has determined that costs not
    associated with the joint tax collection process have been reimbursed to the federal grant
    in the current methodology in use by NJDOL. . . . The UI federal fund was over-
    reimbursed with State funds in the amount of $6,069,667 during this four year period.

    While we understand that as prudent auditors the evidence must be reviewed before you
    form your opinion on this, we have attached a schedule . . . that shows the breakout of
    the cost centers which had a portion of their overhead charged to State programs for the
    joint tax function. As is evidenced by the centers names and descriptions, most are not
    applicable to the tax function. . . .

    We therefore only partially concur with the finding and continue to assert that prior to
    any overall conclusion as to whether the federal grant has been overcharged, that this
    issue of what was charged must be taken into account.

Auditor’s Conclusion

NJDOL readily admits that, as our report states, it did not allocate departmental AS&T costs to
the State-funded programs sharing the costs of the UI tax collection function. However, it claims
that it overreimbursed the UI program because, in calculating the State’s share of the cost of the
tax collection function, it allocated UI program AS&T costs proportionately based on UI direct
labor dollars rather than just allocating the UI program AS&T costs solely related to the tax
collection function. [Note: Departmental AS&T costs relate to administrative, staff and technical
costs which generally benefit all programs/projects within the department, whereas UI program
AS&T costs pertains to administrative, staff and technical support costs which benefit all direct
program functions carried out by the Division of Unemployment Insurance.]



                                                  16
NJDOL apparently has been allocating the UI program AS&T costs on the basis of UI direct
labor dollars at least since the negotiation of its last cost sharing agreement with DOL, dated
March 17, 1992, and the allocation base used (direct labor dollars) appears to satisfy the
requirements of OMB Circular A-87. While the allocation of UI program level AS&T costs to
the tax collection function is not explicitly mentioned in the cost sharing agreement, failure to
allocate these costs out to all benefitting cost objectives, including the tax collection function,
would violate Federal cost principles. NJDOL’s comments regarding an alleged inequity in the
methodology used during the period covered by our audit, should be addressed to the DOL
officials responsible for negotiating such agreements with NJDOL for resolution. As auditors, we
do not have authority to set aside all or a portion of any such cost sharing agreement. Further,
the scope of our review did not include a review of the equity of this cost sharing agreement.

In summary, NJDOL has acknowledged that it did not allocate departmental AS&T to State
programs sharing in the UI program costs of the tax collection function. Therefore, no changes
are being made in this finding or its related conclusions and recommendations.


 FINDING 2. Allocation Base Used by NJDOL to Distribute its AS&T Costs
            was Flawed Because Certain State-Funded Projects were Excluded

Our review of NJDOL’s methodology for allocating AS&T costs directly to projects disclosed
that not all projects were included in the allocation base. A comparison of the project list used to
allocate AS&T costs to projects and the NJDOL time distribution list disclosed that a number of
projects were not included in the allocation base. We found the excluded projects comprised
about 4 to 6 percent of the employee positions in the allocation base, and these projects were
primarily funded by State general fund revenues. We recreated the NJDOL allocation of AS&T
costs to projects for the 4-year period ended September 30, 2001, added the excluded projects,
and found that DOL had been overcharged about $1.4 million during this period. The DOL
Indirect Cost Negotiation Agreement and OMB Circular A-87 both require that all projects of the
department be included in the allocation base. NJDOL officials were aware the DOL was being
overcharged for AS&T costs but they believed that the amount was not discernible.

OMB Circular A-87 states that indirect cost pools, such as AS&T costs, should be distributed to
benefited cost objectives on bases that will produce an equitable result in consideration of
“relative benefits derived.” In addition, as discussed earlier in this report, the Federal cost
principles state that “the basic guidelines for costs to be allocable require all activities which
benefit from the governmental unit’s indirect costs, including unallowable activities and services
donated to the governmental unit by third parties, will receive an appropriate allocation of the
indirect costs.”

In addition, there is a negotiated agreement between DOL and NJDOL on indirect costs for each
of the 4 years. The negotiated indirect cost agreement provides that certain department-level
administrative support services will be allocated to DOL projects through direct charges. These
supporting services are mainly those centralized departmental services which include accounting,

                                                17
budgeting, internal auditing, planning and research, personnel administration, training, procedures
and system development, office services, procurement, and property and equipment management.
These costs, generally referred to as AS&T costs, were supposed to be billed directly to the grant
and/or activity according to a cost allocation plan that included all projects. We found that AS&T
costs were being allocated based on actual personal services (salaries, wages and leave) costs
which is the same base on which statewide support services costs (referred to as the Statewide
Cost Allocation Plan) are allocated to DOL and other projects.

Our review of the methodologies used by NJDOL in allocating statewide support service costs
and AS&T expenses disclosed that NJDOL included personal services costs for all Federal and
State projects in the base when determining the statewide support services cost rate for allocation
purposes. However, NJDOL included only Federal projects and state-funded trust fund projects
in the base for allocating AS&T expenses — state general fund projects were not included in the
base for allocating AS&T expenses. The exclusion of state general fund projects from the
allocation base results in an inequitable distribution of AS&T costs to all Federal projects and
State trust fund projects, especially DOL grant awards which are NJDOL’s biggest funding
source.

Our comparison of the projects recorded in the monthly report on the allocation of AS&T costs,
and the projects listed in the monthly time distribution accounting report, disclosed that a number
of projects were excluded every month. For example, in October 1997, we found that 20 projects
had been excluded with a total of 210.84 positions paid, or 6.2 percent of the total 3,401 positions
paid in the allocation process for that month. For FFY 1998, we found that the paid positions for
excluded projects each month ranged from 4.5 to 6.3 percent of the total used in the allocation
process. For the FFYs 1999, 2000, and 2001 the percentage of paid positions for excluded
projects ranged from 4.1 to 5.3 percent.

We compared the amount of AS&T costs allocated to DOL projects by NJDOL with our
calculations which contained two differences from the method used by NJDOL. First, our
calculations included the previously excluded projects, thereby expanding the base over which the
AS&T costs would be allocated. Also, we added the state-appropriated amount for AS&T costs
which had been placed in a separate account and not included in total AS&T costs allocated
directly to projects. Other than those two changes, our calculations were identical to those used
by NJDOL. This comparison showed that DOL had been overcharged $1,390,978 during the 4-
year period ended September 30, 2001. The comparative data presented in summary fashion
follows.




                                                18
            Federal            NJDOL                   Auditor               Over
          Fiscal Year         Allocation              Allocation            Charges
              1998           $11,729,908           $11,425,999              $303,909
              1999           $13,880,748           $13,519,257              $361,491
              2000           $14,353,202           $14,005,500              $347,702
              2001           $14,250,830           $13,872,954              $377,876
           TOTALS            $54,214,688           $52,823,710            $1,390,978

A more detailed comparison of the overcharges to DOL is included in Exhibits B, C, D, and E.
We discussed NJDOL’s failure to include all projects in the allocation base for AS&T costs
directly charged to projects with the NJDOL Director of Internal Audit. We also informed him
that our audit had highlighted two problem areas where NJDOL was overcharging DOL grant
awards for AS&T costs. He stated that his office had audited the amounts of AS&T costs
allocated to projects to assure their supportability. However, he stated that his office had not
reviewed the NJDOL calculations used to allocate AS&T costs to determine whether NJDOL was
complying with the negotiated agreement and A-87.

We also discussed this situation with other NJDOL officials who stated this problem had been
caused by the failure of the State of New Jersey to allocate sufficient funds to pay for all NJDOL
AS&T costs applicable to state general fund projects. They stated early in the audit that they
were aware of this situation, but believed that the additional costs to DOL and other Federal
agencies would not be discernible.

Auditee’s Response

    The audit disagrees with the methodology in use for allocating departmental indirect
    costs. Certain State funded projects were excluded from the allocation base and
    therefore it was believed these projects did not pay their share of those costs. We
    disagree in that State funded projects were direct charged for their costs. OMB
    Circular Letter A-87 states there is no universal rule for classifying certain costs as either
    direct or indirect under every accounting system. Therefore, certain costs were direct
    charged to the State programs. While we acknowledge we will review the auditors
    methodology for consideration of a change, we do not believe any funds are due back to
    the USDOL, since direct charging of State programs does not violate federal
    requirement.

Auditor’s Conclusion

We agree that there is no universal rule for classifying certain costs as either direct or indirect
under every accounting system. However, NJDOL cannot charge its AS&T costs on one basis to
Federal grant awards (i.e., allocated based on direct labor hours), while direct charging an

                                                 19
arbitrary portion of the salary and fringe benefits of certain AS&T employees to a separate
account to be charged only to State-funded projects. As previously discussed in this report, OMB
Circular A-87, Attachment A, paragraph C.1. states, among other things that, to be allowable,
costs must “Be consistent with policies, regulations, and procedures that apply uniformly to both
Federal awards and other activities/programs of the governmental unit.” In addition, OMB
Circular A-87, Attachment A, paragraph D.2. states, in part, that “. . . it is essential that each item
of cost be treated consistently in like circumstances either as a direct or an indirect cost.”
Moreover, NJDOL has not provided any substantive evidence showing that its unorthodox
deviations from these criteria resulted in its AS&T costs being allocated/charged to all benefiting
cost objectives on the basis of “relative benefits received.” To the contrary, our audit disclosed
that the employees whose personnel services costs were being charged arbitrarily to State-funded
programs were performing duties and responsibilities that benefitted all projects within the
department — not just particular State projects. In short, the disparate methods used to charge
Federal grants versus State-funded programs violate Federal cost principles and are, therefore,
unallowable.

We recalculated the AS&T costs which should have been allocated to the DOL grant awards by
adding the indirect costs for the State projects in question to the total NJDOL indirect cost pool,
and added the salaries of those State projects to the base on which the pool costs were allocated
to projects. This resulted in all NJDOL indirect costs being allocated to all projects regardless of
funding source.

In summary, that NJDOL’s written response did not provide any new or compelling evidence
which would warrant any change in this finding or its related conclusions and recommendations.



                        CONCLUSIONS AND RECOMMENDATIONS



CONCLUSIONS

We concluded that NJDOL has overcharged DOL grant awards a total of $6,166,318 in AS&T
costs during FFYs 1998, 1999, 2000, and 2001. This occurred because NJDOL did not comply
with (1) Federal cost principles mandated by OMB Circular A-87, (2) negotiated agreements with
DOL, and (3) the terms and conditions of the various DOL grant awards.

As discussed in the body of this report, our audit disclosed that DOL grants were overcharged for
AS&T costs because NJDOL had (1) improperly excluded AS&T costs from its reimbursement to
the UI grant for costs related to the DOL/NJDOL sharing of costs of the UI tax function; and
(2) excluded certain state-funded projects from the base on which AS&T costs were allocated
directly to projects.



                                                  20
In our discussions with NJDOL officials, it appeared to us that they were aware that NJDOL’s
actions, as spelled out in this report, were contrary to the negotiated agreements.


RECOMMENDATIONS

We recommend that:

1.   The cognizant DOL Grant Officer(s) direct NJDOL to refund the $6,166,318 in unallowable
     costs questioned in this report.

2.   The cognizant DOL Grant Officer(s) direct NJDOL to adjust its billings to DOL for FY 2002
     for AS&T costs to preclude further over-recoveries of AS&T costs attributable to the findings
     in this report.

3.   The Assistant Secretary for Employment and Training direct NJDOL to ensure that its proposals
     on AS&T cost allocation methodology rate proposals fully comply with the reasonableness,
     allocability, and allowability criteria mandated by OMB Circular A-87.

4.   The Assistant Secretary for Employment and Training direct NJDOL to include a provision in
     its annual audit plans for periodic audit of the implementation of negotiated agreements
     applicable to the sharing of UI tax collection costs and the allocation of AS&T costs directly to
     projects.




                                                 21
                                 TICHENOR & ASSOCIATES, LLP
                         CERTIFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS

                                    304 MIDDLETOWN PARK PLACE, SUITE C
                                           LOUISVILLE, KY 40243

                                         BUSINESS: (502) 245-0775
                                            FAX: (502) 245-0725
                                     EMAIL: TICHENORKY@AOL.COM




Mr. Elliot P. Lewis
Acting Deputy Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
Francis Perkins Building, Room S-5518
200 Constitution Ave., NW
Washington, DC 20210



                 INDEPENDENT ACCOUNTANT'S REPORT ON AUDIT

Tichenor & Associates, LLP, under contract to the U.S. Department of Labor (DOL), Office of
Inspector General (OIG), conducted an audit of direct and indirect costs charged to DOL grant
awards by the State of New Jersey’s Department of Labor (NJDOL) for Federal fiscal years
(FFYs) 1998, 1999, 2000, and 2001, to determine whether such costs were reasonable, allowable,
and allocable under the Federal cost principles set forth in OMB Circular A-87.

Our preliminary audit of direct costs and the DOL negotiated NJDOL indirect costs charged to
the UI program indicated significant problems with the allowability and allocability of claimed
AS&T costs (departmental indirect costs) beginning as early as October 1, 1997, and continuing
on to the present time. Accordingly, we focused the balance of our audit on the NJDOL claims
for and recovery of AS&T costs applicable to DOL grants for FFYs ended September 30, 1998,
1999, 2000, and 2001.

We were not engaged to, and did not perform, an audit of NJDOL’s total costs charged to DOL
grant awards, the objective of which would have been the expression of an opinion on the total
costs claimed by NJDOL, and, accordingly, we do not express such an opinion.

Based on the results of our audit, we questioned a total of $6,166,318 in AS&T costs charged to
DOL grant awards during FFYs ended September 30, 1998, 1999, 2000, and 2001 because
NJDOL procedures were not in compliance with the Federal costs principles mandated by OMB
Circular A-87, and negotiated agreements between DOL and NJDOL.

More specifically, we found that:

                                                   22
(1)   NJDOL had failed to reimburse UI grant awards for AS&T expenses, as required by
      the negotiated agreements between DOL and NJDOL, when it reimbursed other costs
      for the collection of State taxes; and

(2)   The personal services allocation base used by NJDOL to distribute AS&T expenses
      was flawed because certain state-funded projects were excluded.

This limited-scope audit was performed in accordance with applicable standards established by the
American Institute of Certified Public Accountants, and the Government Auditing Standards
issued by the Comptroller General of the United States. Our engagement did not include
expressing a written opinion on the reasonableness and allowability of NJDOL’s total claimed
costs, the adequacy of its overall system of internal controls, or its compliance with laws and
regulations applicable to Federal grant awards. Our detailed findings, conclusions, and
recommendations are contained in the accompanying report.

This report is intended solely for the use of the U.S. Department of Labor; however, the final
report is a matter of public record and its distribution is not limited.




TICHENOR & ASSOCIATES, LLP
Louisville, Kentucky
December 14, 2001




                                                23
EXHIBITS




   24
                                                                                                             EXHIBIT A
                                             New Jersey Department of Labor
                             Summary of Departmental AS&T Costs Applicable to UI Tax Function
                                that Should Have Been Reimbursed by NJDOL to UI Grants
Designation
 Formula                            Description                       FFY 1998     FFY 1999     FFY 2000     FFY 2001
     A      Total UI Tax Positions Acct(306-325) - Annual Average         282.81       250.96       244.90       225.84
     B      UI AS&T Positions Acct (400-440) - Annual Average             276.72       246.34       211.85       205.35
     C      Total UI PS Positions- Annual Average                        1423.75      1334.90      1231.50      1175.54
  D=C-B Net UI Positions - UI PS less AS&T Positions - Annual Average 1147.03         1088.56      1019.65       970.19
  E=A/D Percent of UI Tax Positions to Net UI Positions                   24.66%       23.05%       24.02%       23.28%
  F=ExB UI AS&T Positions Applicable to Tax Function                       68.23        56.79        50.88        47.80
 G=A+F Total Positions Applicable to Tax Function                         351.04       307.75       295.78       273.64
  H=G/C Ratio of Tax Positions to Total UI Positions                      24.66%       23.05%       24.02%       23.28%
     I      NJDOL AS&T PS Cost Applicable to UI                       $5,830,411   $6,117,395   $6,559,532   $6,633,006
  J=HxI NJDOL AS&T PS Cost Applicable to Tax Function                 $1,437,546   $1,410,314   $1,575,472   $1,544,014
     K      Percent of UI Tax Function Cost to Be Reimbursed by State     55.15%       55.15%       55.15%       55.15%
  L=JxK UI NJDOL AS&T PS Cost Not Reimbursed by State                   $792,806     $777,788     $868,873     $851,523
    M       NJDOL Average Personal Benefit Rate                           21.40%       23.73%       26.30%       25.40%
 N=LxK UI NJDOL AS&T PB Cost Not Reimbursed by State                    $169,660     $184,569     $228,513     $216,287
     O      UI NJDOL AS&T NPS Cost                                    $1,062,474   $1,817,801   $1,217,354   $1,156,536
 P=OxH UI NJDOL NPS Cost Applicable to Tax Function                     $261,963     $419,078     $292,384     $269,215
 Q=PxK UI NJDOL AS&T NPS Cost Not Reimbursed By State                   $144,473     $231,122     $161,250     $148,472
R=L+N+Q TOTAL UI NJDOL AS&T COSTS NOT REIMBURSED                      $1,106,939   $1,193,479   $1,258,636   $1,216,282
    Note: Differences in the calculations are due to rounding.
                                                                        RECAP OF AS&T COSTS NOT REIMBURSED
                                                                                   1998   $1,106,939
                                                                                   1999   $1,193,479
                                                                                   2000   $1,258,636
                                                                                   2001   $1,216,282
                                                                                   Total  $4,775,335


                                                                 25
                                                    EXHIBIT B

         NEW JERSEY DEPARTMENT OF LABOR

        Comparison of NJDOL and Auditor Allocation
         of AS&T Costs to DOL Grants for FFY 1998

                 AS&T Personal Services Costs
  Month/            NJDOL          Auditor           Over
   Year            Allocation     Allocation        Charges
  Oct. '97              $724,857       $718,525         $6,332
  Nov. '97              $618,459       $615,332         $3,127
  Dec. '97              $751,368       $734,070        $17,298
  Jan. '98              $722,610       $701,532        $21,078
  Feb. '98              $651,890       $633,917        $17,973
  Mar. '98              $712,415       $692,419        $19,996
  Apr. '98              $702,245       $685,204        $17,041
  May '98               $671,253       $651,160        $20,093
  Jun. '98              $700,708       $679,317        $21,391
  Jul. '98              $738,606       $716,622        $21,984
  Aug. '98              $683,414       $674,721         $8,693
  Sep. '98              $728,691       $715,499        $13,192
 Sub-Totals           $8,406,516     $8,218,318       $188,198

              AS&T Personal Benefit Costs - 21.4%
 Sub-Totals           $1,798,994     $1,758,720         $40,274

               AS&T Non-Personal Services Costs
  Dec. 97             $106,480        $101,008          $5,472
  Mar. '98            $437,319        $413,286         $24,033
  Jun. '98            $437,841        $414,668         $23,173
  Sep. '98            $542,758        $519,999         $22,759
 Sub-Totals         $1,524,398      $1,448,961         $75,437

 TOTALS          $11,729,908      $11,425,999          $303,909
Note: AS&T Non-Personal Services Costs are allocated quarterly.




                              26
                                                    EXHIBIT C

         NEW JERSEY DEPARTMENT OF LABOR

        Comparison of NJDOL and Auditor Allocation
         of AS&T Costs to DOL Grants for FFY 1999

                AS&T Personal Services Costs
  Month/           NJDOL          Auditor            Over
   Year           Allocation     Allocation         Charges
  Oct. '98             $742,348       $724,829         $17,519
  Nov. '98             $717,519       $700,791         $16,728
  Dec. '98             $791,823       $772,011         $19,812
  Jan. '99             $734,341       $717,131         $17,210
  Feb. '99             $696,379       $682,083         $14,296
  Mar. '99             $824,483       $804,017         $20,466
  Apr. '99             $744,674       $727,093         $17,581
  May '99              $728,407       $708,560         $19,847
  Jun. '99             $765,055       $747,547         $17,508
  Jul. '99             $767,501       $751,246         $16,255
  Aug. '99             $770,048       $753,106         $16,942
  Sep. '99             $789,984       $771,623         $18,361
 Sub-Totals          $9,072,562     $8,860,037        $212,525

            AS&T Personal Benefit Costs - 23.73%
 Sub-Totals        $2,152,919      $2,102,487           $50,432

              AS&T Non-Personal Services Costs
  Dec. 98            $127,081        $122,208           $4,873
  Mar. '99           $665,770        $642,221          $23,549
  Jun. '99           $768,387        $739,255          $29,132
  Sep. '99         $1,094,029      $1,053,049          $40,980
 Sub-Totals        $2,655,267      $2,556,733          $98,534

 TOTALS          $13,880,748      $13,519,257          $361,491
Note: AS&T Non-Personal Services Costs are allocated quarterly.




                              27
                                                     EXHIBIT D

         NEW JERSEY DEPARTMENT OF LABOR

        Comparison of NJDOL and Auditor Allocation
         of AS&T Costs to DOL Grants for FFY 2000

                AS&T Personal Services Costs
  Month/          NJDOL          Auditor              Over
   Year          Allocation     Allocation           Charges
  Oct. '99           $769,330        $760,333             $8,997
  Nov. '99           $805,771        $796,045             $9,726
  Dec. '99           $856,115        $826,876           $29,239
  Jan. '00           $804,146        $789,384           $14,762
  Feb. '00           $806,768        $784,962           $21,806
  Mar. '00           $886,918        $864,263           $22,655
  Apr. '00           $762,644        $745,900           $16,744
  May '00            $858,295        $834,773           $23,522
  Jun. '00           $825,828        $814,075           $11,753
  Jul. '00           $814,611        $796,758           $17,853
  Aug. '00           $894,490        $875,016           $19,474
  Sep. '00           $831,092        $813,794           $17,298
 Sub-Totals        $9,916,008      $9,702,179          $213,829

              AS&T Personal Benefit Costs - 26.30%
 Sub-Totals         $2,607,910      $2,551,673           $56,237

              AS&T Non-Personal Services Costs
  Dec. 99           $164,069        $156,953             $7,116
  Mar. '00          $559,934        $538,342            $21,592
  Jun. '00          $473,742        $454,125            $19,617
  Sep. '00          $631,539        $602,228            $29,311
 Sub-Totals       $1,829,284      $1,751,648            $77,636

 TOTALS         $14,353,202       $14,005,500          $347,702
Note: AS&T Non-Personal Services Costs are allocated quarterly.




                             28
                                                    EXHIBIT E

         NEW JERSEY DEPARTMENT OF LABOR

        Comparison of NJDOL and Auditor Allocation
         of AS&T Costs to DOL Grants for FFY 2001

                AS&T Personal Services Costs
  Month/          NJDOL          Auditor             Over
   Year          Allocation     Allocation          Charges
  Oct. '00           $868,486        $841,381          $27,105
  Nov. '00           $887,794        $865,951          $21,843
  Dec. '00           $835,422        $822,715          $12,707
  Jan. '01           $883,793        $858,864          $24,929
  Feb. '01           $758,668        $737,721          $20,947
  Mar. '01           $844,829        $823,414          $21,415
  Apr. '01           $777,729        $756,846          $20,883
  May '01            $861,794        $838,230          $23,564
  Jun. '01           $766,631        $745,743          $20,888
  Jul. '01           $835,824        $820,395          $15,429
  Aug. '01           $899,468        $878,068          $21,400
  Sep. '01           $770,029        $756,536          $13,493
 Sub-Totals        $9,990,467      $9,745,864         $244,603

              AS&T Personal Benefit Costs - 25.4%
 Sub-Totals       $2,537,579       $2,475,449           $62,130

              AS&T Non-Personal Services Costs
  Dec. '00          $303,067        $289,881           $13,186
  Mar. '01          $607,839        $582,952           $24,887
  Jun. '01          $489,593        $468,449           $21,144
  Sep. '01          $322,285        $310,359           $11,926
 Sub-Totals       $1,722,784      $1,651,641           $71,143

 TOTALS         $14,250,830       $13,872,954          $377,876
Note: AS&T Non-Personal Services Costs are allocated quarterly.




                             29
AUDITEE’S RESPONSE




        30
31
32
33
34
35
36
37
38
